      25408                           Federal Register / Vol. 69, No. 88 / Thursday, May 6, 2004 / Notices

      VII. Reporting Requirements                             responsibilities under the cooperative                  Dated: April 29, 2004.
        An annual financial status report                     agreement including the availability of               Jeffrey Shuren,
      (FSR) (SF–269) is required. The original                appropriate staff and sufficient funding.             Assistant Commissioner for Policy.
      and two copies of the report must be                      4. The application specifies the                    [FR Doc. 04–10266 Filed 5–5–04; 8:45 am]
      submitted to FDA’s Grants Management                    manner in which interaction with FDA                  BILLING CODE 4160–01–S
      Officer within 90 days of the budget                    will be maintained throughout the life
      period expiration date of the agreement.                of the project.
      Failure to file an annual FSR in a timely                                                                     DEPARTMENT OF HEALTH AND
                                                                5. The application specifies how IIT                HUMAN SERVICES
      fashion may be grounds for suspension
                                                              will monitor progress of the work under
      or termination of the agreement.
        An annual program progress report is                  the cooperative agreement and how                     Office of Inspector General
      also required. The noncompeting                         progress will be reported to FDA.
                                                                                                                    Healthcare Integrity and Protection
      continuation application (PHS 2590)                       6. The application shall include a
                                                                                                                    Data Bank: Change in Self-Query Fee
      will be considered the annual program                   detailed budget that shows the
      progress report.                                        following items: (1) Anticipated costs                AGENCY: Office of Inspector General
        A final program progress report, FSR                  that are allowable and allocable to the               (OIG), HHS.
      and invention statement must be                         project; and (2) the sources of funds to              ACTION: Notice.
      submitted within 90 days after                          meet those needs.
      expiration of the project period of the                                                                       SUMMARY: The Department is authorized
      cooperative agreement.                                  IX. Mechanism of Support                              under 45 CFR part 61, the regulations
      VIII. Review Procedures and                               Support for this project will be in the             implementing the Healthcare Integrity
      Evaluation Criteria                                     form of a cooperative agreement. This                 and Protection Data Bank (HIPDB), to
                                                                                                                    assess a fee on all requests for
      A. Review Procedures                                    agreement will be subject to all policies
                                                                                                                    information, except requests from
                                                              and requirements that govern the
         The application submitted by IIT will                                                                      Federal agencies. In accordance with the
                                                              research grant programs of the PHS,
      first be reviewed by grants management                                                                        HIPDB regulations, we are announcing a
                                                              including the provisions of 42 CFR part               two-dollar decrease in the fee to
      and program staff for responsiveness.
                                                              52, 45 CFR part 74, and PHS grants                    practitioners, providers, and suppliers
      The requested budget must not exceed
                                                              policy statement. The regulations issued              who request information about
      $2,750,000 (direct and indirect costs) for
                                                              under Executive Order 12372 do not                    themselves (self-query) from the HIPDB.
      the first year. The application will be
      considered nonresponsive if it is not in                apply. The length of support will be 1                The new fee to self-query the HIPDB
      compliance with this document. If the                   year. Cost sharing or matching is not a               will be $8.00. There will be no change
      application is found to be                              requirement of this program. The NIH                  to the $4.25 charged for each query
      nonresponsive, it will be returned to the               modular grant program does not apply                  submitted by authorized entities to
      applicant without further consideration.                to this FDA program.                                  access the data bank.
         The application submitted by IIT will                X. Dun and Bradstreet Number                          EFFECTIVE DATE: The fee is effective on
      undergo noncompetitive dual peer                        Requirement                                           July 1, 2004.
      review. The application will be                                                                               FOR FURTHER INFORMATION CONTACT: Joel
      reviewed for scientific and technical                     Beginning October 1, 2003, applicants               Schaer, Office of Management and
      merit by an ad hoc panel of experts                     will be required to have a Dun and                    Policy, (202) 619–0089.
      based upon the applicable evaluation                    Bradstreet Number (DUNS) to apply for
      criteria. If the application is                                                                               SUPPLEMENTARY INFORMATION:
                                                              a grant or cooperative agreement from
      recommended for approval, it will then                  the Federal government. The DUNS                      User Fee Amount
      be presented to the National Advisory                   number is a 9-digit identification
      Environmental Health Sciences Council                                                                           Section 1128E(d)(2) of the Social
                                                              number, which uniquely identifies                     Security Act (the Act), as added by
      for their concurrence.                                  business entities. Obtaining a DUNS                   section 221(a) of the Health Insurance
      B. Review Criteria                                      number is easy and there is no charge.                Portability and Accountability Act
        The application will be reviewed and                  To obtain a DUNS number, call 1–866–                  (HIPAA) of 1996, specifically authorizes
      evaluated according to the following                    705–5711. Be certain that you identify                the establishment of fees for the costs of
      criteria:                                               yourself as a Federal grant applicant                 processing requests for disclosure and
        1. The application clearly                            when you contact Dun and Bradstreet.                  for providing information from the
      demonstrates an understanding of the                                                                          Healthcare Integrity and Protection Data
                                                              XI. Legend                                            Bank (HIPDB). Final regulations at 45
      purpose and objectives of the
      cooperative agreement regarding a                         Unless disclosure is required under                 CFR part 61 set forth the criteria and
      collaborative food safety and security                  the Freedom of Information Act as                     procedures for information to be
      program.                                                amended (5 U.S.C. 552) as determined                  reported to and disclosed by the HIPDB.
        2. The application clearly describes                  by the freedom of information officials               The Act also requires that the
      the steps and a proposed schedule for                                                                         Department recover the full costs of
                                                              of the Department of Health and Human
      planning, implementing, and                                                                                   operating the HIPDB through such user
                                                              Services or by a court, data contained in
      accomplishing the activities to be                                                                            fees. In determining any changes in the
                                                              the portions of this application that                 amount of the user fee, the Department
      carried out under the cooperative
                                                              have been specifically identified by                  employs the criteria set forth in
      agreement. The application presents a
                                                              page number, paragraph, etc., by the                  § 61.13(b) of the HIPDB regulations.
      clear plan and schedule of steps to
                                                              applicant as containing restricted                      Specifically, § 61.13(b) states that the
      accomplish the goals of the cooperative
      agreement.                                              information, shall not be used or                     amount of each fee will be determined
        3. The application establishes the                    disclosed except for evaluation                       based on the following criteria:
      applicant’s ability to perform the                      purposes.                                               • Direct and indirect personnel costs;


VerDate jul<14>2003   19:47 May 05, 2004   Jkt 203001   PO 00000   Frm 00046   Fmt 4703   Sfmt 4703   E:\FR\FM\06MYN1.SGM   06MYN1
                                                  Federal Register / Vol. 69, No. 88 / Thursday, May 6, 2004 / Notices                                                                                     25409

        • Physical overhead, consulting, and                                      provider, or suppler was announced in                                           In order to minimize administrative
      other indirect costs including rent and                                     a Federal Register notice on March 3,                                        costs, the Department will continue to
      depreciation on land, buildings and                                         2000 (65 FR 11589). Based on the above                                       accept payment for self-queries only by
      equipment;                                                                  criteria and our analysis of operational                                     credit card. The HIPDB accepts Visa,
        • Agency management and                                                   costs and the comparative costs of the                                       MasterCard, and Discover. To submit
      supervisory costs;                                                          various methods for filing and paying                                        queries, practitioners, providers, and
        • Costs of enforcement, research and                                      for queries, the Department is now                                           suppliers must use the HIPDB Web site
      establishment of regulations and
                                                                                  lowering the self-query fee by two                                           at http://www.npdb-hipdb.com.
      guidance;
        • Use of electronic data processing                                       dollars—from $10.00 to $8.00.                                                   The Department will continue to
      equipment to collect and maintain                                             When an authorized self-query is                                           review user fees periodically for the
      information, i.e., the actual cost of the                                   submitted for information by a                                               HIPDB, and will revise such fees as
      service, including computer search                                          practitioner, provider, or supplier, the                                     necessary. Any future changes in fees
      time, runs and printouts; and                                               appropriate total fee will be $8.00                                          and their effective date will be
        • Any other direct or indirect costs                                      multiplied by the number of individuals                                      announced through notice in the
      related to the provision of services.                                       or organizations about whom the                                              Federal Register.
        The current fee structure of $10.00 for                                   information is being requested.
      each self-query by a practitioner,                                                                                                                       Examples

                                                                                                                                                                                   Fee per name
                                                                                                                                                                                    in query, by
                                                                               Query method                                                                                                           Examples
                                                                                                                                                                                     method of
                                                                                                                                                                                      payment

      Self-query ..............................................................................................................................................................
           $8.00   10 self-queries:
                                                                                                                                                                                                     10 × $8.00 =
                                                                                                                                                                                                     $80.00.



        Dated: April 12, 2004.                                                    issue of coverage and reimbursement for                                      DEPARTMENT OF HEALTH AND
      Dara Corrigan,                                                              genetic technologies. The second day                                         HUMAN SERVICES
      Acting Principal Deputy Inspector General.                                  will be devoted to discussions around a
      [FR Doc. 04–10330 Filed 5–5–04; 8:45 am]                                    draft resolution on the issue of direct-to-                                  National Institutes of Health
      BILLING CODE 4152–01–P                                                      consumer marketing and consideration
                                                                                  of a draft Vision Report. Time will be                                       Notice of Meeting: Secretary’s
                                                                                  provided each day for public comment.                                        Advisory Committee on Genetics,
      DEPARTMENT OF HEALTH AND                                                                                                                                 Health, and Society
                                                                                     Under authority of 42 U.S.C. 217a,
      HUMAN SERVICES                                                              section 222 of the Public Health Service                                        Pursuant to Public Law 92–463,
                                                                                  Act, as amended, the Department of                                           notice is hereby given of the fourth
      Office of the Secretary                                                     Health and Human Services established                                        meeting of the Secretary’s Advisory
      Notice of Meeting: Secretary’s                                              SACGHS to serve as a public forum for                                        Committee on Genetics, Health, and
      Advisory Committee on Genetics,                                             deliberations on the broad range of                                          Society, (SACGHS), U.S. Public Health
      Health, and Society                                                         human health and societal issues raised                                      Service. The meeting will be held from
                                                                                  by the development and use of genetic                                        8:30 a.m. to 5 p.m. on June 14, 2004,
         Pursuant to Public Law 92–463,                                           technologies and, as warranted, to                                           and 8 a.m. to 3 p.m. on June 15, 2004,
      notice is hereby given of the fourth                                        provide advice on these issues.                                              at the Marriott Hotel Bethesda, at 5151
      meeting of the Secretary’s Advisory                                            The draft meeting agenda and other                                        Pooks Hill Road, Bethesda, Maryland.
      Committee on Genetics, Health, and                                          information about SACGHS, including                                          The meeting will be webcast. The
      Society (SACGHS), U.S. Public Health                                        information about access to the webcast,                                     meeting will be open to the public with
      Service. The meeting will be held from                                      will be available at the following Web                                       attendance limited to space available.
      8:30 a.m. to 5 p.m. on June 14, 2004,                                       site: http://www4.od.nih.gov/oba/                                               The first half of the day will be
      and 8 a.m. to 3 p.m. on June 15, 2004,                                      sacghs.htm. Individuals who wish to                                          devoted to an informational update on
      at the Marriott Hotel Bethesda at 5151                                      provide public comment or who plan to                                        the status of genetic nondiscrimination
      Pooks Hill Road, Bethesda, Maryland.                                        attend the meeting and need special                                          legislation and presentation and
      The meeting will be webcast. The                                            assistance, such as sign language                                            discussion of an information gathering
      meeting will be open to the public with                                     interpretation or other reasonable                                           activity conducted by the Committee’s
      attendance limited to space available.                                      accommodations, should notify the                                            education task force. In addition, the
         The first half of the first day will be                                  SACGHS Executive Secretary, Ms. Sarah                                        Committee will be reviewing a draft
      devoted to an informational update on                                       Carr, by telephone at 301–496–9838 or                                        resolution on genetics education and
      the status of genetic nondiscrimination                                     e-mail at sc112c@nih.gov. The SACGHS                                         training. The second half of the first day
      legislation and presentation and                                            office is located at 6705 Rockledge                                          will consist of discussion and
      discussion of an information gathering                                      Drive, Suite 750, Bethesda, MD 20892.                                        deliberation on a draft report on the
      activity conducted by the Committee’s                                                                                                                    issue of coverage and reimbursement for
                                                                                    Dated: April 29, 2004.
      education task force. In addition, the                                                                                                                   genetic technologies. The second day
      Committee will be reviewing a draft                                         LaVerne Stringfield,                                                         will be devoted to discussions around a
      resolution on genetics education and                                        Director, Office of Federal Advisory                                         draft resolution on the issue of direct-to-
      training. The second half of the first day                                  Committee Policy.                                                            consumer marketing and consideration
      will consist of discussion and                                              [FR Doc. 04–10321 Filed 5–5–04; 8:45 am]                                     of a draft Vision Report. Time will be
      deliberation on a draft report on the                                       BILLING CODE 4140–01–M                                                       provided each day for public comment.


VerDate jul<14>2003        19:47 May 05, 2004          Jkt 203001       PO 00000       Frm 00047        Fmt 4703       Sfmt 4703       E:\FR\FM\06MYN1.SGM               06MYN1
